<html>
<title> - SAFEGUARDING OUR SYMBOL OF DEMOCRACY: U.S. CAPITOL POLICE'S MANAGEMENT PLAN FOR 2017 AND BEYOND</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











SAFEGUARDING OUR SYMBOL OF DEMOCRACY: U.S. CAPITOL POLICE'S MANAGEMENT 
                        PLAN FOR 2017 AND BEYOND

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________

      Printed for the use of the Committee on House Administration





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-517                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   

                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
RICHARD NUGENT, Florida                Ranking Minority Member
RODNEY DAVIS, Illinois               ZOE LOFGREN, California
BARBARA COMSTOCK, Virginia           JUAN VARGAS, California
MARK WALKER, North Carolina

                           Professional Staff

                       Sean Moran, Staff Director
                  Jamie Fleet, Minority Staff Director
 
SAFEGUARDING OUR SYMBOL OF DEMOCRACY: U.S. CAPITOL POLICE'S MANAGEMENT 
                        PLAN FOR 2017 AND BEYOND

                              ----------                              


                         TUESDAY, MAY 17, 2016

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:12 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the Committee) presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Katie Patru, Deputy Staff Director; Erin 
McCracken, Communications Director; Brad Walvort, Professional 
Staff Member; Cole Felder, Legal Counsel; C. Maggie Moore, 
Legislative Clerk; Tim Sullivan, Staff Assistant; Jamie Fleet, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Khalil Abboud, Minority Deputy Staff Director/Director 
of Legislative Operations; Mike Harrison, Minority Chief 
Counsel.
    The Chairman. I call to order the Committee on House 
Administration for today's hearing on the U.S. Capitol Police. 
The hearing record will remain open for 5 legislative days so 
that members might submit any materials that they wish to be 
included.
    A quorum is present so we might proceed.
    We are meeting today to hear from the new U.S. Capitol 
Chief of Police, Matt Verderosa.
    As a Committee, Chief, we certainly want to congratulate 
you on your appointment, and we are so looking forward to 
continuing to work with you shoulder to shoulder. So we 
appreciate you coming.
    He is going to be talking, of course, today about his 
vision, his direction for the Capitol Police moving forward. 
Some of the specific items we hope to discuss today include the 
Capitol Police's budgets, their priorities, recent security 
events, respective actions taken, as well as the Capitol Police 
security initiatives, both current and future.
    The Capitol Police is a law enforcement agency with a very 
unique mission, certainly. They are charged with protecting and 
serving the U.S. Capitol, the seat of our Nation's democracy. 
This is an institution, of course, of physical symbols of our 
free society. Unfortunately, our institution of freedom and 
democracy also is a target. So there will always be a need for 
security restrictions, but a complete ban on access would be 
extremely detrimental to the institution. The American people 
need to be able to access and to meet with their Members of 
Congress.
    Since Congress created the U.S. Capitol Police in 1828, 
they have worked very hard to fulfill this dual mission of 
safety and accessibility. We certainly understand that this is 
no small task. Each of us, Members, staff, and visitors alike, 
have the utmost respect for the men and women who serve and 
protect our Nation's Capital.
    We are holding today's hearing as part of our Committee's 
responsibility for oversight and to review the safety and 
security of the Capitol and its facilities. Our last hearing 
actually with the Capitol Police was in May of 2015. Today the 
Committee will hear from the new Chief on the progress that has 
been made, his vision to continue to develop the force, the 
goals and priorities for the operation of the Capitol Police.
    Our Committee, of course, works with the Capitol Police on 
a daily basis to ensure that they have the tools that they 
need, the authority, and the support that they need to keep our 
Capitol safe and secure for all. The Capitol Police are 
responsible for reviewing security protocols necessary to keep 
the Capitol safe and to ensure that those protocols are tested 
and deployed against any threats that we might face.
    As with any law enforcement organization, the 
responsibility for meeting the mission begins and ends at the 
top, and that responsibility now rests with Chief Verderosa. 
The Chief understands the security needs of the Capitol 
Complex. The Chief has served in a number of roles within the 
Capitol Police since 1986. He has seen firsthand how new and 
variable threats have only increased over the years.
    While there are some sensitive aspects about the operations 
and capabilities of the Capitol Police, there certainly are a 
number of items that we would like to discuss and receive an 
update on as well, certainly about some of the various 
incidents that had happened.
    I know we have had an opportunity, Chief, to talk, I think, 
privately with all of the Members here about the shooting 
incident that occurred at the U.S. Capitol Visitors Center. And 
by the way, that, I will just say, before you can get a chance, 
your staff, your Capitol Police, that thing happened by the 
book. They did such a fantastic job of reacting and responding. 
I mean, that thing, you could write a book, that thing was 
perfect; that response.
    As well, we had all of these protests, week-long protests 
that happened recently here. We might like to hear about when 
you were processing such large number of arrests, how that all 
went, lessons learned, perhaps, for that. Also about your 
leadership team, your strategic plan, your goals and 
objectives, training, monitoring threats across the campus as 
well.
    We have talked a little bit about garage security. I don't 
know if you want to touch on that today. It is always an issue, 
something that we all met about again recently. And I know you 
have met with many Members about that. Our Sergeant at Arms is 
very, very involved in that as well.
    So I will also say, before I ask my Ranking Member to make 
a comment, I think since the gyrocopter incident we have all 
seen as Members of Congress here an increased amount of 
communication from the U.S. Capitol Police on various 
incidents. In fact, we probably get almost more information 
than we need sometimes, but more is better. And so I am 
certainly very appreciative of that. I don't think any Member 
wants to be in a position where we are watching something 
unfold on the Capitol lawn on FOX News or CNN or whatever you 
are watching. So that, I think, is very much appreciated as 
well.
    And so this Committee, of course, Chief, is here to assist 
the Capitol Police because we all share a common goal, and that 
is protecting the U.S. Capitol campus and everyone who works 
here and certainly all of the visitors, millions of visitors 
that come here each and every year.
    So we certainly thank the Chief for his appearance here 
today. We are looking forward to his testimony.
    I would like to recognize my Ranking Member, Mr. Brady, for 
his opening statement.
    Mr. Brady. Thank you, Madam Chair, for holding this very 
important hearing this morning.
    Good to see you, Chief. Thank you for being here.
    Chief Verderosa. Good morning, sir.
    Mr. Brady. I want to comment briefly and thank the Chief 
for how visible he has been with the congressional community.
    Your predecessor was here 3\1/2\ years. I think I met him 
one time toward the end of his tenure. You have been here 3 
months. I have met with you four times. I appreciate that.
    As the son of a police officer, I know how hard your job 
can be, and I have heard from rank-and-file members about a 
positive change in the tone at the top of the organization, and 
my staff advise me that we are all working very well together. 
So thank you for that.
    I would also like to thank you for traveling to 
Philadelphia last month and for taking the time to meet with 
our mayor, Jim Kenney, and myself to talk about congressional 
security at the convention.
    I want to mention this for the benefit of my Republican 
colleagues, that our security professionals in Philadelphia are 
very impressed with the Chief and our Sergeant at Arms. I thank 
him for coming up and seeing us in Philadelphia.
    You, again, showed the proper respect to all our Members, 
and we appreciate you. So that will speak very well for you and 
your convention in Cleveland also.
    Thank you for your service, and I look forward to hearing 
your statement.
    Chief Verderosa. Thank you, sir.
    The Chairman. I thank the gentleman.
    I think both of those conventions are going to go 
absolutely smooth, right, just smooth.
    Any other Member wish to make an opening statement or 
comment?
    Okay. Let me formally introduce the Chief. On March 21, 
2016, the Chief was sworn in as the new Chief of the U.S. 
Capitol Police. Chief Verderosa is the ninth Chief and had been 
serving as the Assistant Chief of Police since April of 2015. 
The Chief has served in numerous roles with the U.S. Capitol 
Police since 1986, including positions in the Uniformed and 
Patrol Division, the Internal Affairs Division, the Training 
and Services Bureau. In addition, he commanded the U.S. Capitol 
Police's Review Task Force before becoming Assistant Chief.
    And as Chief of the U.S. Capitol Police, Chief Verderosa is 
responsible for commanding a force of sworn and civilian 
personnel who are dedicated to providing comprehensive law 
enforcement, security, and protective operation services to the 
U.S. Congress--Members, staff, and as I said, millions of 
annual visitors as well, and to the surrounding complex also.
    So, again, we certainly thank you for joining us, Chief. We 
have your written testimony. The floor is yours. Take as much 
time as you need. We appreciate you coming.

STATEMENT OF MATTHEW VERDEROSA, CHIEF OF POLICE, UNITED STATES 
                         CAPITOL POLICE

    Chief Verderosa. Thank you, ma'am. I certainly appreciate 
the opportunity to be here.
    Good morning, Members, and thank you for the opportunity to 
appear before the Committee to discuss the United States 
Capitol Police. I am joined here today by the Department's 
Chief Administrative Officer, Mr. Richard Braddock; Deputy 
Chief Richard Rudd; Deputy Chief Fred Rogers; and also Deputy 
Chief Chad Thomas, who is staffing the airwaves right now, 
watching operations while I am here.
    Also with me is our General Counsel, Gretchen DeMar. And 
members, representatives from the department's Office of 
Inspector General.
    Also, I would like to welcome other members of my executive 
management team and also attending today, and I appreciate 
their presence here today. Our FOP chairman, Jim Konczos of our 
Labor Committee, and Gus Papathanasiou, who is the First Vice 
Chairman. Also with us are members of the Teamsters, our other 
union, who we work with on a daily basis.
    I would like to thank the Committee for their steadfast 
support of the United States Capitol Police. The regular 
discussions that we have with you and your staff about our 
programs and management of our mission are greatly valued, and 
I am very grateful for the Committee's engagement and feedback 
so that we can continuously meet the needs and expectations of 
Congress.
    Secondly, I would like to recognize the men and women of 
the United States Capitol Police. Every day they publicly 
demonstrate how American freedoms that we all hold dear are 
carried out in our Nation's capital. They work tirelessly to 
ensure that the Congress can conduct its legislative 
responsibilities without disruption, all the while exhibiting 
the utmost respect for the Constitution and the protection of 
First Amendment liberties.
    I am thoroughly impressed with their performance, which is 
both seen and unseen by the public and the community, and I am 
thankful for their desire to constantly rise to the occasion 
and handle whatever comes our way.
    I have been in Federal law enforcement for over 30 years, 
serving in a number of roles. And now as Chief of the U.S. 
Capitol Police, I have the responsibility to you, to the 
Members of Congress, the Capitol Police Board, the 
congressional staff, the visitors, and my employees to do 
everything possible to protect and safeguard everyone every day 
in a unique and open environment.
    The threats and risks we face today are dynamic, they are 
changing, they are sophisticated, and they create a greater 
need for focus on national security. Coordinating with the 
Capitol Police Board and consulting with our committees of 
jurisdiction, including this Committee, the Committee on House 
Administration, we have developed a 4-year strategy that 
provides for growth of the department to fulfill three new 
mission sets in an effort to further enhance the successful 
long-term protection of the Capitol Complex.
    These mission sets are the result of a constant threat 
analysis, including intelligence gathered by our partners 
globally and nationally. These initiatives consist of the 
following: enhanced garage security, as we have talked about on 
several occasions; pre-screeners and additional overwatch 
personnel at various building access points; and also, the 
further use of the enhanced portal screeners that we employed 
for the first time during the State of the Union.
    Members and staff will see several enhancements as a result 
of the three initiatives. There will be a visible security 
screening at House garage entry points and a more significant 
officer presence outside Capitol Complex doors and access 
points, including additional K-9 teams and subject to 
interdiction officers. Visitors entering the House Chamber for 
major events will undergo additional screening through enhanced 
portal scanners, further keeping potential threats away from 
the House of Representatives and the floor of the House.
    There has been much discussion regarding resources for the 
department and the long-term viability of these initiatives. As 
the Chief of Police and as a steward of the taxpayers' dollars, 
it is my fiduciary responsibility to look at every possibility 
within existing assets to accomplish our mission before I seek 
additional assets and resources. The Congress has been very 
generous to the department, and I will do my due diligence to 
first look within and not request something unless it is truly 
needed.
    One of the tough decisions I have had to make to meet the 
new mission sets within our current resources is to find 
staffing to accomplish some of the additional screening 
requirements within our existing budget. To do this, and after 
discussing my concept with Chairman Konczos of the FOP Labor 
Committee, I have determined that it is most appropriate to 
modify some of our off-post time rotations in the Uniformed 
Services Bureau from the current standard of a one-to-four 
rotation to a one-to-five during shifts when the majority of 
officers are working, Monday through Friday, day and evenings. 
This will make additional manpower available and will result in 
only approximately 10 minutes less off-post time or standby 
time for employees.
    With these enhancements come important opportunities. The 
modification of off-post rotations will result in more 
specialty job opportunities for employees throughout the 
department, specifically in the area of K-9 and subject 
interdiction. These officers will provide police coverage in 
zones outside access points to the complex.
    I should note that this change does not alter the 
longstanding contractual obligations with our CBA, and the off-
post time remains well above the minimum required by the 
collective bargaining agreement for the purposes of conducting 
in-service training, allowing for appropriate relief time for 
officers who routinely are focused on working the security 
equipment.
    While some additional resources will be necessary in the 
outyears to complete the initiatives and to provide stationary 
posts, I am confident in the department's ability to meet these 
new mission sets, and we will continue to look for ways to 
offset any cost and potential reapportionment of how we assign 
personnel.
    In the months ahead, we have a number of high-profile 
protective events that will require much attention and manpower 
resources. Later this month, the annual Memorial Day rehearsal 
and concert will take place, followed by the 4th of July 
celebration on the west front of the Capitol. In July, the 
department will also be focusing its attention on the two 
Presidential nominating conventions in Cleveland, Ohio, and 
Philadelphia, Pennsylvania, where we will be protecting Members 
of Congress.
    In addition, we are officially planning the 58th Inaugural 
of the President of the United States, which takes place on 
January 20, 2017. While this national special security event 
takes place on Capitol Grounds every 4 years, it is prudent and 
necessary to begin preparations early enough to ensure absolute 
success in the execution of this significant mission set.
    As the former commander of the department's policy and 
planning operations, I fully understand the importance of 
setting meaningful performance metrics focused on outcomes 
rather than outputs. We are currently in the process of 
building the foundation to better collect, analyze, and share 
the data that we collect department-wide with the ultimate goal 
of having information that allows my staff to be better 
informed in making management and security decisions.
    The department is also actively engaged in addressing and 
resolving recommendations made by the Office of the Inspector 
General. Since 2006, the USCP Inspector General has made 310 
recommendations to the department. We have closed 255 by fully 
implementing the recommendations. We are actively working on 
closing the remaining 55 open recommendations, and annually I 
will continue to propose key areas for the Inspector General to 
examine so that she and her team can assist me in making needed 
changes that will make us a better department.
    In closing, I want to share with you some of my priorities 
for the near term. I have always believed that the department's 
mission is simple yet extremely critical. I want to get back to 
the basics and not overcomplicate policing. I want to leverage 
existing resources in the law enforcement community to become 
smarter and more efficient, especially in the area of 
intelligence gathering. I plan to place a greater emphasis on 
training to help our workforce remain focused and to fight 
complacency and to ensure that supervisors are prepared to 
manage. These are the basic areas that I will focus on during 
the next year.
    Finally, I think it is important to discuss and mention the 
March 28, 2016, shooting incident in the U.S. Capitol Visitors 
Center. From all practical perspectives, I want to say that the 
screening process works. On that day, we had an individual 
intent on wreaking havoc. He was detected to be carrying a 
weapon during the process we employ each day to screen people 
visiting the Capitol Complex.
    We were prepared, we responded appropriately, and it should 
serve as a lesson to others who may want to come to the Hill to 
do harm. Our highly trained officers will stop those 
individuals who wish to do us harm. I am extremely proud of the 
officers involved in this incident, and I am grateful to our 
partner agencies for their assistance, both throughout the 
event and following the incident.
    Again, thank you for the opportunity to testify here today 
about the United States Capitol Police. I am truly humbled to 
be here, and I would be pleased to answer any questions you 
have.
    [The statement of Chief Verderosa follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    The Chairman. Thank you very much, Chief.
    I would ask, we mentioned about better communication from 
the U.S. Capitol Police to all the Members of Congress. If you 
could perhaps expand on that a bit of how your agency 
communicates and how you work with your brother agencies here 
locally. For instance, when we had the Navy Yard incident and 
just communicating with D.C. Police or other agencies as well. 
How is that all working?
    Chief Verderosa. Certainly. We have a very good 
relationship with our partner agencies here in D.C., 
particularly the Metropolitan Police, the United States Park 
Police, the United States Secret Service, Federal Protective 
Service, Supreme Court Police. We have communications, 
interoperable communications with our partner agencies. We have 
a direct switch line to the Secret Service, the Metropolitan 
Police, the Park Police.
    We work very closely with, we are embedded with several FBI 
task forces, the JTTF, and we have an ongoing relationship with 
the Supreme Court and the Federal Protective Service. And they 
actually man our command center on a regular basis, on a daily 
basis, so that we have direct communications.
    We also work with other agencies on an ad hoc basis. We 
have interoperable radio communications with most of the local 
agencies, and we are working to solidify further the ability to 
communicate directly from a command perspective. We meet 
regularly with the Metropolitan Police in their law enforcement 
partners meeting every Monday. I attend various meetings, as do 
my subordinate officials, at a multitude of levels, on a 
multitude of issues, regarding the ongoing law enforcement 
issues, threats, and events that are occurring throughout the 
District of Columbia.
    We certainly have lessons learned from all of these major 
events, including the Navy Yard, the second Navy Yard incident, 
and the difference between the first and second in terms of 
communication was extreme. Incident command, as a matter of 
fact, Deputy Chief Rogers was command post representative for 
the United States Capitol Police during that second ongoing 
Navy Yard issue.
    We all employ incident command system processes for 
leadership and command, area command, and we communicate on a 
regular and daily basis during events and during the off times. 
Offshoot of some of the gyrocopter incident was communication 
with the community. We have improved our messaging matrix. And 
I apologize if we give you too much. I would rather have you 
have too much than too little. Obviously, it is important that 
you know what is going on for situational awareness and for the 
effect that incidents have on the legislative process. We take 
great strides to make sure that you have the information that 
you need, both on the House side and the Senate side.
    We shortly will have a joint congressional messaging 
process that is being worked on jointly with all of the 
stakeholders, and I look forward to that. So that will cut out 
some of the--if there is delay, it will certainly cut out 
redundancy and it will be more efficient.
    The Chairman. If I could ask just one other question, 
Chief, and I appreciate the answer to the first one. But we 
talk about investment with the U.S. Capitol Police, and 
certainly there is no second for investing in people and all 
kinds of technology that can assist you, resourcing you 
properly. I will tell you, the K-9s are unbelievable. I mean, 
what a critical component. I mean, those dogs can just find 
things that no computer can, it seems like, right?
    Chief Verderosa. Oh, absolutely.
    The Chairman. Yeah. How do you do with the K-9s? Do you 
need more of them? How do you see that unfolding?
    Chief Verderosa. We are expanding our K-9 capability by six 
dogs in the near term. Part of that is the traditional EOD-type 
sweeps, and we have some other new techniques that we use, 
which I would be happy to discuss offline, which will just 
contribute to being a force multiplier for us in terms of what 
we do.
    Absolutely, the dogs are invaluable. They can do many 
things that humans can't. They detect things at long distances. 
They can detect things that we obviously would not know were 
there. So we do literally hundreds and thousands of sweeps 
every year with the dogs, and again, they are invaluable to us.
    We currently have an opening in our--and we get tremendous 
competition for the openings in the K-9-unit. It is really, 
truly incredible.
    The Chairman. Right. Thank you very much.
    I recognize our Ranking Member, Mr. Brady.
    Mr. Brady. Yes. Thank you, Madam Chair.
    Chief, as you know, I do represent Philadelphia. Thank you 
for your visit. That is where the Democratic National 
Convention will take place. But I would like for you to discuss 
your preparations from the Capitol Police perspective, not only 
in Philadelphia but also in Cleveland. What were your 
preparations there?
    Chief Verderosa. Absolutely. Our convention planning is 
well underway. We have been working. Our Dignitary Protection 
Division has the lead. The Secret Service is the lead planner 
for both events, both in Philadelphia and in Cleveland.
    As part of the NSSE broad approach and Committee approach, 
we planned these events within that framework. So we have 
employed the NSSE framework for any number of major events, 
including previous conventions, State of the Union addresses, 
and the inaugurals, and it is really a sound system that we 
cover all bases.
    Our Dignitary Protection Division has made multiple visits 
to both venues, both cities. They have procured the requisite 
lodging. And we are in the process of designing a security plan 
for those specific venues, both the actual convention venues 
and any ancillary venues for events that are occurring outside 
the main venue.
    I appreciate the opportunity to travel to Philadelphia and 
meet with you, and I appreciate the introduction that you gave 
us to the Philadelphia officials. It helped me tremendously in 
my ability to communicate the message to my troops and to make 
sure that we are doing all the things that we need to do.
    We are going to be traveling to, either myself or 
representatives, along with the House Sergeant at Arms and 
other stakeholders, to Cleveland in the very near future, just 
as we did in the Philadelphia trip. We will continue to work 
with our law enforcement partners, both State, local, and 
Federal, to ensure that the security plan for the Member 
protection--and that is the reason we are going to be there, to 
make sure that the Members of Congress have a safe event and we 
can protect the interests of our statutory protectees.
    We will continue to regularly brief the Capitol Police 
Board, and my staff is available to brief the Committee at your 
request on the status of the planning.
    Mr. Brady. Thank you, Chief.
    Also, it goes without saying, the people you brought here, 
you have a pretty good relationship with the other unions, the 
Teamsters and the police unions. And I also know because they 
are not knocking down my door, and they have been for the last 
3 years, every other month coming in and trying to complain 
about what we can do to be helpful. That is not happening. So I 
know you are doing a good job.
    But just tell me, how often do you meet with your reps?
    Chief Verderosa. I meet with Chairman Konczos and his team, 
it is about every 2 weeks. But in between, his staff and my 
staff are working on issues. Dominic Storelli, formerly of 
House Administration, is my Chief of Staff, and he works 
directly with Jim on a number of issues. I meet on a number of 
issues, whether it is contract negotiations or just daily 
grievance type issues.
    The philosophy for me, and I have known Chairman Konczos 
and Gus Papathanasiou for many years, particularly Jim for 
almost 30 years, and we have a mutual respect for each other's 
positions. I have asked Jim to be here today, and I appreciate 
his attendance. Since I was appointed, we reinstituted the 
regular meetings. I plan on continuing the regular meetings.
    We also believe--I think we both believe that there is 
significant common ground that we can address issues, try to 
resolve issues at the lowest level before they become 
grievances, and we work on things of mutual interest. Of 
course, we will probably disagree on some issues, but I think 
we have the kind of relationship that we will be able to work 
through those issues in an amicable way and try to do what is 
best for the Congress.
    Mr. Brady. Thank you, Chief. And thank the men for the job 
that you do every single day. And it is a pleasure to be 
working with you.
    Madam Chair, I yield back the balance of my time.
    The Chairman. Mr. Harper is recognized.
    Mr. Harper. Thank you, Madam Chair.
    And, Chief, thank you for being here. I know this has been 
a very sobering weekend with the memorial service that was 
Sunday and how that, I know, means so much to you, and your 
attendance we greatly appreciate.
    You know, last week, the House passed some important bills, 
and one of which was to fund the Bulletproof Vest Program to 
help local law enforcement with that lifesaving bulletproof 
vest, to help on those funding issues there.
    And I know you and I had an opportunity to meet. I want to 
thank you for coming to my office and for us having that 
opportunity. And as I told you in that meeting, if I had an 
issue or a problem, I am going to come to you and we will 
discuss it. I won't be running to the press to talk about it. 
You and I will have a chance to do that, and I want to 
reiterate that here.
    But what can we do as a Committee and as individual Members 
of Congress to help you do your job? And I am not talking about 
the funding issues.
    Chief Verderosa. Sure.
    Mr. Harper. What else can we do?
    Chief Verderosa. I thank you for meeting with me, both 
privately and for your comments today, sir. I appreciate the 
Committee's support on initiatives, whether it is garage 
security or portal scanners or any of the other issues that 
come up.
    It is interesting, because it is such a large institution 
and I have a very large workforce. Sometimes it takes a little 
while for information to filter down. We are working on the 
communication piece. But it is also incumbent on us to assist 
the Sergeant at Arms on both sides and the leadership to 
communicate the message of any changes that we do.
    Change does not come easy for people, both within the 
department and in general. I know that. I have a 24-year-old. 
It is hard to change anything without an argument or a reason. 
I have to explain my reasoning. And I try to do that because it 
is the right thing to do. I want to be able to communicate 
changes. And that is one of the reasons that I do meet with the 
union leadership. I want to have that open communication.
    But I also want to have that with the community, and I 
intend to continue to visit Member offices and try to advise 
you all, everybody, both on the Committee and off, on what we 
are doing and why we do things. Because I think if you have the 
information, it helps sell the message and it helps us change 
sort of the mindset, whether we are going to institute new 
operations or new procedures.
    So I appreciate the opportunity to be able to come to the 
Members and be able to explain why we do things. I think it is 
important to maintain that communication.
    Mr. Harper. Chief, firearm qualifications, certifications 
are very important, and I know we are in an interim here----
    Chief Verderosa. Yes.
    Mr. Harper [continuing]. With the range being out of place. 
Tell me what you are doing in the interim and how the new 
facility will be an improvement over the old.
    Chief Verderosa. Appreciate the question, sir.
    We are in our current cycle, even though we are off site. 
In the interim, while our range is down and we are preparing 
for the opening--the reopening--of the new range, I want to 
thank the Congress and the Architect for providing the funds 
and the space and the ability to have a range that is so close 
to where we work.
    What it does for us is it helps us minimize the impact of 
having our sworn workforce off the grounds in a status that is 
either not working or in training. It is travel time. It really 
helps us to have the range here. We had the old range in the 
Rayburn for over 50 years, and we got tremendous amount of use 
of the range. And I couldn't even quantify how much time and 
effort we save by having the range locally.
    Our goal is to have the new range open up soon, by Labor 
Day, and have it in use for at least another 50 years. It will 
certainly outlast me. But so far in this cycle we have 
qualified 87 percent of the Police Department.
    Now, we have reaped some benefit, even though there is a 
little bit of cost associated with sending them out to 
Cheltenham, Maryland, where our entry-level academy is. We have 
maximized the use of that time by continuing the training day. 
So we send officers out for the entire day rather than have 
them traveling back to the Hill. So we leverage the ability to 
use some more of our training time during that extra day.
    I look forward to having the range back here on the Hill, 
though, as you can see, we probably will be able to finish our 
current cycle by June 1, hopefully, if not, sometime in June, 
and then we will move onto the second. We have semiannual 
qualification, so we shoot twice a year in the fiscal year. We 
are a little bit off the cycle, however. With the indulgence of 
the stakeholders, we have a great plan to get the range up and 
running, and it really will provide us with the ability to 
change how we train. It is a dynamic range, and it is really 
helpful for us to be able to tactically use a range.
    Mr. Harper. Great. Thank you, Chief.
    And I yield back.
    The Chairman. The Chair recognizes Ms. Lofgren.
    Ms. Lofgren. Thanks very much.
    And welcome to you, Chief. It is good to meet you.
    And I am hoping that at some point we can have a closed 
session with the Chief, because there are some questions it 
probably wouldn't be smart to ask in a public environment, but 
that we should get the answers to.
    Just two things. I was concerned in discussing this with 
the prior Chief, that although there was communication with 
other law enforcement agencies, there didn't appear to be a 
written mutual aid protocol. And so I am interested in not 
going through it today, but in reviewing that with you in terms 
of the protocol, what it is, and how it is communicated to our 
workforce, number one.
    And number two, I am wondering if the department has ideas 
on how the physical layout of the campus might be adjusted to 
enhance safety and also to enhance the capacity of your members 
to do their job.
    Chief Verderosa. Certainly, the physical security is one of 
our main issues. We have a very robust Security Services 
Bureau, and they handle all the physical security aspects 
working very closely with the Architect of the Capitol. The 
measures that were put in place post-9/11, we are at the life 
cycle end of a lot of the life. We are looking at doing life 
cycle replacement. Of course, it is always a very expensive 
issue, but it is certainly something that is very necessary.
    Ms. Lofgren. Well, let me interrupt, because I don't think 
I was clear on my question. For example, where is the 
perimeter? I mean, we respect the Fourth Amendment. You have to 
have a rationale for inquiring. But at the perimeter of a 
facility you don't. So where are the perimeters set and how 
should they be set and how would that make a difference for 
your troops?
    In terms of level of securities in garages, we have garages 
that have nothing above them, we have garages that have an 
office building above them.
    Chief Verderosa. Yes.
    Ms. Lofgren. What kind of deployment makes sense in each 
one? Those are the things I was thinking of.
    Chief Verderosa. Sure. Absolutely. Of course, we always 
balance the open campus with the level of security that we 
provide, and it is very important to maintain. And it is very 
difficult, you are absolutely right, it is a very difficult 
balance for our officers. We don't have a physical fence. We 
don't have structures that prevent people from walking across 
the east front, west front. We use our human intuitive 
capability and we deploy personnel.
    Obviously, within the framework of the infrastructure, 
whether it is the Olmsted wall or whether it is physical 
barriers that we install, bollards, barriers that pop up for 
vehicular threats and those types of things, we have to be, 
obviously, very cognizant of the effect that security has on 
the openness and the ability for constituents to visit Members.
    Ms. Lofgren. Of course.
    Chief Verderosa. And it is a very huge competing interest 
in the security issue.
    So we focus our main thrust and concentration on the 
largest threats, and we are always looking for the individual 
threat, which is one of the greatest threats that we have these 
days, the individual.
    But we have to balance it and accept a modicum of risk in 
terms of the physical structures that we put in to prevent 
people from approaching the building. We do work very closely 
with both this Committee and the Senate Committee on Rules and 
Administration.
    So to work on those issues, whether it is expanding the 
perimeter, allowing access close into the building, or whether 
it is initiatives to do inspection of things that people bring 
with them to the grounds. So it is a very tenuous line that we 
walk, and we take a very hard look at any type of procedure we 
are going to employ that could come close to, you know, could 
be perceived as a violation of the Fourth Amendment. We 
certainly don't want to do anything that would be contrary to 
the Constitution.
    So it is a work in progress. We work on it continually. It 
is a conversation that I have with the Capitol Police Board on 
a regular basis and we will continue to have with the 
committees of jurisdiction.
    Ms. Lofgren. Well, I see my time has expired. Perhaps we 
can pursue this further.
    Chief Verderosa. Absolutely.
    Ms. Lofgren. Thank you.
    Thanks, Madam Chairman.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Madam Chairman. I appreciate you 
holding this.
    And, Chief, welcome.
    Chief Verderosa. Thank you, sir.
    Mr. Nugent. And I appreciate your time when you came up to 
visit with me in the office. And what a different approach, I 
will just say this, and I am not blowing smoke, but what a 
different approach in regards to your approach and the prior 
Chief with inclusion of the union in a weekly or whenever-it-
is-necessary discussion. You know, typically you are going to 
probably agree on more things that you are going to disagree. 
You are always going to have disagreement. That happens in the 
best of families.
    But at the end of the day the rank-and-file folks out there 
doing the job every day have some great ideas. And I think that 
you are moving absolutely in the right direction. And I think 
we will be much safer as Members of Congress because of that 
collaboration between the two groups.
    One of the things that still strikes me when we go back and 
look at past history, and we had the Chief here discuss that, 
particularly when we had loss of weapons and things like that, 
but reading an article where the person who sent the picture 
got how many months off without pay and demoted and the person 
who actually left the weapon unattended in a location that 
could be accessed by their folks received a suspension but 
relatively minor in scope.
    And I guess I am still a little miffed at the fact that 
that supervisor got demoted but then also had a huge suspension 
without pay. And I understand it is in litigation, so you 
probably can't talk about it. But I would hope just in the 
future that what that person did has actually brought out an 
issue that needed to be under the light of day so we all know 
and we all take confidence in what goes on within the Capitol 
Police.
    And I will go along with Mr. Brady on this; I have not had 
any negative comments with the union at all. That is a 
testament to your leadership. I will just be very blunt with 
that. It is a testament to your leadership, and I hope that 
continues.
    You know, one of the things that I know we talked about was 
management by walking around, is walking around your 
organization and listening to the folks. You are only as good 
as the people you surround yourself with, and I would suggest 
that your leadership team do the same and I am sure they are 
under your leadership.
    One of the things Ms. Lofgren had mentioned is security, 
and I think that is an issue that we all grapple with from time 
to time. And you are right, we have an open campus. But what 
exactly, as we move forward in regards to the underground 
facilities--I know that the equipment is in place--when are we 
actually going to start to do that screening?
    Chief Verderosa. We will be doing the security screening, 
with the appropriate communication first, very soon. I can't 
give you a specific date. I am working with Mr. Irving, the 
Sergeant at Arms, and we want to time it right so that we 
introduce the screening process. We have had some community 
meetings with the staff several weeks ago in terms of how we 
would roll it out. And I am working very closely with Mr. 
Irving on exactly when we want to do it strategically so we 
cause the least amount of disruption to the business process of 
the community.
    But I would expect sometime in the next several weeks that 
we will do it and we will certainly communicate it. I got that 
message loud and clear. We are going to make sure that we 
properly communicate, make sure everyone is aware of what we 
are going to do.
    I do appreciate your comments about working with the union, 
sir. You know, I respect the troops. You know, I consider 
myself first and foremost a police officer, and I am prepared 
every time I am out on the street to take police action. I 
carry--I don't have it today, because I am wearing this 
blouse--but I carry my radio every day, I monitor the radio, 
and I take police action when I need to.
    And I have tremendous respect for the work that we do here. 
I ask a lot of the troops. They are ambassadors. They still 
have to enforce the rules and the law, and they deal with 10 to 
12 million people a year. And that is just screening them 
through the process. There are probably another 10 million who 
walk through the grounds that we do, we talk to, we interact 
with.
    And I am always amazed at how few complaints that we get 
from the citizens and the staff about courtesy or those types 
of things. They truly are ambassadors. They do hard work. They 
are focused on the x-ray machines and the magnetometers, 
knowing every time that they have to be 100 percent; they have 
to be sharp.
    So I appreciate members of both unions being here today, 
and I appreciate the relationship I have with the officers. I 
always hope to have a positive relationship. Obviously, there 
are things that we are going to disagree on, and I have to make 
tough decisions and tough choices that affect people. But I 
never fall short of understanding that these are people. They 
are not numbers. They have families. They have ambition. They 
have interests.
    And to me, I try to treat people the way I want to be 
treated. I am not making a moral judgment on any previous Chief 
or anybody else. It is just my approach to how I work with my 
staff. And I have leaders and deputy chiefs and civilian 
directors who are out with the troops. And I appreciate that 
comment as well because they are good role models, they are out 
amongst their troops.
    Again, we make management decisions and they are tough 
decisions and not everyone agrees on the best approach to how 
we get to that bottom line, but the officers are a great 
resource.
    A great example of that is processing the 1,300 or so 
arrests that we had a couple of weeks ago during the Democracy 
Spring demonstration period.
    Now, this was nonviolent civil disobedience. It was 
nonconfrontational for the most part. And it took a lot of 
planning and effort and a lot of manpower. And it is not me 
making the arrests. It is the officers that come in early. It 
is the officers that have to be the arresting officer. And it 
is the people who do the job that I respect, I have so much 
respect for, because really I have worked the posts and I have 
done those jobs.
    And it is on a Sunday. Sometimes you have got to come in, 
you have got to wake up early, and you would rather be doing 
something else. But, hey, it is why we get paid the big bucks, 
and they do a tremendous job.
    But we took a concept and a new approach on how we handled 
mass arrests. Other agencies in the city have had the ability 
to cite and release people. Traditionally here with the way the 
rules are set up and the laws, we have had to have full custody 
arrests for most of the arrestees that we handle, even in mass 
arrests civil disobedience situations, and it is tremendous in 
terms of time and effort. These are the same troops during that 
week that had to go day to day for about 10 days and be the 
same people being brought in early to handle these arrests.
    So we took a concept that I thought could be employed. We 
borrowed and adapted the Metropolitan Police's PD 61D cite and 
release forms, their policy. We adapted them to ours. We worked 
with the Attorney General for the District of Columbia to make 
sure that we were using the appropriate charges. And when the 
law changed in 2013, it made it easier for us to use this 
process. So we employed it and we were able to expedite the 
process.
    But the reason I bring this up is it really wasn't me. I 
had the concept, but the officers are the ones who took--even 
from the first day we had arrests, it took about 8 hours to 
process 429 people. I mean, it doesn't seem like a lot of time, 
but when you look at how--we would still probably be processing 
these arrests had we been using the old method, the old mass 
arrests method.
    In that short duration of 1 week, the officers came up with 
a great idea, with a couple of the lieutenants who were running 
the mission set, and expedited the process. So that by the end 
of that week we processed 300 arrests in 3 hours, which is just 
phenomenal, and we had very few issues. And we will further 
refine the process based on the suggestions of the officers.
    So I agree with you that some of the best ideas come up 
from the ranks and rise through the ranks. So I am very 
appreciative of the effort of everybody on the CDU, the Civil 
Disturbance Unit.
    Switching gears on you for one second, yes, the case in the 
paper is in litigation. I would prefer not to talk about it. 
But the individual is on administrative leave with pay, not 
without pay for that period of time. So I wanted to set the 
record straight on that.
    Mr. Nugent. Okay. And, Chief, thanks for your comments. I 
appreciate the indulgence of the Chair. And maybe you ought to 
talk to your counterpart in the TSA in regards to listening to 
people that work there. It would be helpful. Thank you.
    The Chairman. Mr. Vargas.
    Mr. Vargas. Thank you very much, Madam Chair, for the 
opportunity to ask you a few questions.
    First of all, I would like to thank you once again for 
meeting with me in my office; letting me know what you are 
doing and what you are planning to do. And I appreciate that. 
It was very helpful. Thank you.
    Secondly, you weren't here earlier, but I thanked the 
Capitol Police. I think you have been doing a really terrific 
job, and I appreciate that.
    I did want to mention one incident that we had here. A 
colleague of ours fell hard during one of the snowstorms and 
hurt himself. He was found by another colleague of ours, who 
then quickly got a couple police officers here, Capitol Police 
to bring him inside. And they were very smart to figure out 
that he had some chest pains and didn't let him walk away as he 
wanted to walk away. They said, ``No, we are calling the 
medics,'' and they did, and they got the medical response team 
to come.
    And again, appreciate their very professional work. You 
know, we would have probably allowed him to walk away, and that 
would have been a very bad idea. So again, I think the police 
did a fantastic job, and I want to thank them for that.
    I do want to ask a little bit about the issue of the open 
campus. I have been to the Bundestag in Germany, and they do 
put a fence around it. It is very difficult to access it. We 
see more and more they have a fence now, a double fence over 
around the front of the White House. Obviously, that gives you 
a lot of protection, but it also prevents people from actually 
accessing the White House, which at one point they had access 
to.
    So there is a balance there, and I think it is important to 
give people the opportunity to come and visit their Members of 
Congress and the Senate. But it is also interesting the issue 
of security, not so much even for us, but those people that do 
come and visit us.
    So anyway, I appreciate that you said you give that a lot 
of interest, a lot of thought. Could you comment a little bit 
more on that, if you will?
    Chief Verderosa. Sure. We do try to leverage technology to 
the extent that we can. And believe me, again, the force 
multiplier of technology, the systems. Some of the systems that 
I prefer not to talk about in an open forum, but they are there 
for us to use, and we do use them, and we deploy them very 
effectively.
    I think as technology increases and the quality of the 
technology, I think we will be able to leverage that. 
Obviously, there is no replacement for having an officer on the 
beat, on a fixed post or in a patrol area that will focus on 
the security, particularly close in. You know, we take sort of 
a layered approach. We want to keep the threat as far away as 
we can, we push it out, and as you get closer to the concentric 
circle you want to have your assets.
    We do leverage even the physical security aspects where we 
have barriers and kiosks. We have posts, staff, and we use the 
buildings as sort of funnels. We can sort of keep eyes on 
people and individuals who approach from the various 
directions.
    But again, we never want to trample on the ability for 
people to visit. I am not advocating putting up a fence or 
anything like that.
    I think with our troops and a focus and an approach where 
we maintain our vigilance in terms of looking at the threat, 
training our employees what to look for, and being able to make 
sure that the troops are fresh and they are able to react 
appropriately, I think with training and staffing, that 
combination, along with the physical security attributes that 
we have, we have been provided with to protect the campus, I 
think that the ongoing conversation will continue with the 
Capitol Police Board and with the committees to ensure that we 
have all the things that we need, particularly technologically, 
that will help us and assist us so that we can leverage that 
without sort of closing the campus off.
    So I know that it is sort of a work in progress. The 
technology changes every day. We want to be able to stay ahead 
of the curve and we want to keep our finger on the pulse in 
terms of what is available to us to sort of use to leverage as 
a force multiplier.
    Mr. Vargas. Again, thank you very much. And lastly, I know 
my time is about up, but I would like to say this. Even though 
they do monitor the threat, they are very polite and 
professional too, and I appreciate that. I know I have 
commented to a couple people in particular. And I appreciate 
their professionalism. Thank you.
    Chief Verderosa. Thank you.
    Mr. Vargas. Thank you.
    Thank you, Madam Chair.
    The Chairman. I thank the gentleman.
    And, Chief, again, we just want to thank you so much for 
coming today. We all are very desirous and looking forward to 
working with you shoulder to shoulder, not just you but your 
management team and all the rank and file, the union fellows 
that are here representing all the rank and files. And just 
know that we appreciate it.
    Every one of us is coming into these offices and these 
office buildings, the Capitol every day, we watch your folks 
day in and day out, and do their job so professionally and 
bravely and well. And we all have a very high degree of comfort 
and security about the professionalism of the brave men and 
women of the U.S. Capitol Police force.
    This Committee stands by to assist you. And one thing I 
would say, and I know I have said this to you privately, I will 
say it publicly as well, don't sometimes wait for a hearing or 
wait for us to come forward with something. We really want to 
know from you if there is a shortfall somewhere that you see as 
a particularly critical element of something that we better be 
aware of, we need to help with. That is why we are here. We all 
work together.
    Chief Verderosa. I sincerely appreciate the support and how 
cooperative the staff have been with me when I want to bring 
forward, if I want to come meet with the Members. I really 
sincerely appreciate the opportunity to be here today. Thank 
you very much.
    The Chairman. Thank you very much.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witness, if we 
have any, and we will forward them. I ask the Chief to respond 
as promptly as he can so that any answers could be made part of 
the record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]

                                  [all]
</pre></body></html>
